No. 19-739

 

 

IN THE

Supreme Court of the Anited States

JULIUS BARBOUR, ET AL.,

Petitioners,
Vv.

HALLIBURTON COMPANY, ET AL.,
Respondents.

On Petition for a Writ of Certiorari
To The United States Court of Appeals
For the Fifth Circuit

MOTION FOR LEAVE TO FILE AND BRIEF OF
NEW CLASS CLAIMS ADMINISTRATOR AS AMICUS
CURIAE IN SUPPORT OF NEITHER PARTY

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the brief contains
4,847 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

The motion contained within this publication has 564 words.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 6, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
